APPENDIX C

ur

FOR THE EIGHTH CIRCUIT
No: 20-1557
Ronald W. Greer
Appellant
v.
Sherie Korneman, Warden
Appellee

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00675-NKL)
ORDER
The petition for rehearing by the panel is denied.
October 20, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

y

APPENDIX B
Olrt lBJV-UURl Ur 7irri//iLi3
FOR THE EIGHTH CIRCUIT

No: 20-1557

Ronald W. Greer
Plaintiff - Appellant
v.
Sherie Komeman, Warden
Defendant - Appellee
Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-CV-00675-NKL)
JUDGMENT
Before KELLY, WOLLMAN, and STRAS, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The appellant’s
motion for leave to proceed on appeal in forma pauperis is denied as moot.
September 01, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

, r»

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
JUDGMENT IN A CIVIL CASE
Ronald W. Greer,
Petitioner,
V.

Case No. 19-00675-CV-W-NKL-P

Sherie Komeman,
Respondent.

□

JURY VERDICT. This action came before the Court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.
DECISION OF THE COURT. This action came for consideration before the
Court. The issues haVe been considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED: ORDERED that Petitioner's petition for writ of
habeas corpus pursuant to 28 U.S.C. § 2254 is DENIED, a certificate appealability is DENIED,
and this case is DISMISSED.

Entered on: February 18. 2020.
PAIGE WYMORE-WYNN
CLERK OF COURT

/s/ C. Davies
(By) Deputy Clerk

Case 4:19-cv-00675-NKL Document 18 Filed 02/18/20 Page 1 of 1

APPENDIX A
IN THE UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
RONALD W. GREER,
Petitioner,
v.

)
)
)
)

)

SHERIE KORNEMAN,
Respondent.

Case No. 19-00675-CV-W-NKL-P

)
)
)
)

ORDER
Petitioner is a convicted state prisoner and filed this pro se matter pursuant to 28 U.S.C.
§ 2254. He challenges his 2013 conviction and sentences for forcible rape, forcible sodomy,
resisting arrest, and two counts of armed criminal action, which were entered in the Circuit Court
of Pettis County, Missouri. For the reasons set forth below, this case is DISMISSED and a
certificate of appealability is DENIED.1
I.

Background2
On Monday, June 11, 2012, the Victim was jogging on the Katy Trail near
her home in Sedalia when she observed a man, later identified as Ronald Greer,
passing her and moving in the direction of an empty parking lot. Greer walked
back in the direction of the trail and sat on a nearby park bench. When the Victim
passed by, Greer stood up and began jogging alongside her. Greer engaged the
Victim in conversation, at one point commenting on her physical attractiveness.
The Victim later testified that she became scared when Greer stated that his
cousin had recently been released from prison. The Victim declined Greer’s
invitation to continue along the trail with him and turned around. Throughout
their interaction, Greer asked the Victim questions about her daily routine,
including whether she “usually come[s] out on the trail every day” and “what time
[she] usually comefs] out.” The Victim responded that she came to the trail every

,p 1 ,Up°n ?f re/iew °Jthe record and to iaw,
Respondent’s position is found to be persuasive Portions
of Respondent s bnef are adopted without further quotation designated.
2
habeaS C°UrtS m“St make “ thC Starling point of their
the state courts’ determinations
of
fact.
.
court shall h
a ayl°r’ 529 U'S’ 362’ 387 (2000)determination of a factual issue made by a State
shall be presumed to be correct. The apphcant shall have the burden of rebutting the presumption of
correctness by clear and convmcing evidence.” 28 U.S.C. § 2254(e)(1). In this case, Petitioner fails to rebut any of
e state court s determrnatron of the facts wrth clear and convincing evidence. Accordingly, the Court adopts
4“
,he facts as set out ^,he Missouri Court of Appeals on the denial of post-conviction relief Dm

Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 1 of 19

day but refused to respond with an exact time. The Victim testified that Greer
made her uncomfortable, so she decided to return home.
- ^ien ^e Victim got back to her house, she saw two neighbors and went
over to tell them about her experience on the trail. She told her neighbors that
this really weird guy was talking to me, followed me, and . .. just made me feel
very uncomfortable!.]” The Victim testified that she told her neighbors about her
encounter with Greer “in case something happened to [her].” The Victim also told
her husband about the encounter, and told other neighbors nearby.
At trial, one of the Victim’s neighbors confirmed that the Victim had told
him and another neighbor about her encounter with Greer on Monday, June 11,
2012. He testified that the Victim was “really upset” when she came to speak with
them because “she couldn’t shake him” on the trail and “she thought he was a
creep.”
The Victim refrained from jogging on the trail for the next two days. On
Thursday, June 14, the Victim decided to resume her jogging routine. In an effort
to avoid Greer, the Victim left home later in the afternoon. As she headed east on
the trail, she noticed a male figure sitting on a concrete slab on the side of the
trail. The person who had been sitting approached her and said, “Fancy meeting
you here again.” At some point, the Victim realized that the person was Greer,
whom she had met on the trail three days earlier. Greer started walking beside her
and chatting with her. As they approached a heavily wooded area, Greer said,
“Oh, I think I hear a bike coming.” When the Victim turned to look, Greer forced
her to the ground and held a knife to her throat. The Victim tried screaming and
fighting back but she could not stand up. Greer told the Victim to stand and
follow his directions, then he forced her into a clearing in the wooded area. Greer
lifted her skirt, and began touching and kissing her. Although the Victim
screamed for help and attempted to resist, Greer inserted his fingers and his penis
into the Victim’s vagina, and forced her to perform oral sex on him. Greer slapped
the Victim repeatedly in the face. He told the Victim to “[d]o what I tell you or I
will kill you and your babies.”
Greer ultimately left, and the Victim got dressed and ran out of the woods
towards her house, screaming. She stopped when she reached a radio station near
the trail. An employee of the radio station testified that the Victim entered,
looking distraught and noticeably disheveled. The employee noted that the Victim
had leaves and sticks in her hair and scratches on her legs. The Victim said that
she had been sexually assaulted and described the assault to the employee The
employee conveyed the details to the office manager, who called the police.
Police responded to the scene with medical personnel.
Police responding to the radio station observed that the Victim was
hysterical” and “very, very upset.” She gave police a description, Greer’s first
name, and his place of employment (which he had volunteered the first day he
had followed her on the trail). The police used that information to identify Greer
as a suspect. Greer was not at his residence when police went there, but his
girlfriend told them he could be found at Centennial Park.
In the meantime, the Victim was transported to the hospital. She
complained of pain during the sexual assault exam, and was “very tender and
2
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 2 of 19

sore.” The Victim was very anxious and crying, and appeared to have been
traumatized. The Victim’s appearance was disheveled and she had vegetation in
her hair.
The Victim had injuries on both sides of her face, her back, legs, arms, left
ankle, and in her genital area. The Victim told the examining nurse that her
assailant had tried to penetrate her vagina with his penis and had used his fingers
“down there.” The Victim told the nurse that Greer had forced her “to swallow
[during oral sex] by threatening her and her children’s lives.” The nurse testified
that the Victim’s physical condition, demeanor and reported history were
consistent with a sexual assault.
When police officers approached Greer at Centennial Park, he ran, but was
ultimately apprehended. Police found a folding pocket knife in the left pocket of
Greer’s shorts, which the Victim identified as the weapon he used during the
attack. While waiting at the station house, Greer said, “I needed to be caught,”
that I deserve this[J” that he was not mad at officers because “I did it myself[,]”
and that he “[cjan’t be mad at you for something I done.” Greer also said that
before being arrested he had plans to leave town and that he was going to take a
bus or train “far, far away.”
After being advised of his Miranda rights, Greer signed a waiver form and
agreed to speak with Detective Jill Green. Both a video recording and a transcript
of the interview were admitted at trial (as Exhibits 25 and 25-T). Greer’s counsel
objected to the introduction of the transcript (Exhibit 25-T) on the basis that it
violated the best evidence rule, but the court overruled counsel's objection. The
video recording (Exhibit 25) was admitted without objection and played for the
jury.
Detective Green testified that, in a portion of the interrogation which was
not recorded, Greer said, “I just love sex, but actually, for taking it, I haven’t
taken it. Don’t cross my mind. I mean, it does sometimes, but I just—I know
better.”
On the recording, when Greer was confronted with information that
“we’ve got a girl that says you raped her tonight[,]” his response was, “Tonight*?”
Detective Green corrected the time frame to “this afternoon.” After Greer was
told that the Victim had described their first encounter, Greer denied meeting a
woman on the Katy Trail on Monday, June 11, 2012. He then told Detective
Green that “[yjou’re not going to get nothing out of me, so you might as well just
send me to county, wherever you’re sending me.” Greer stated, “I could care less
what [the Victim] says. . . . I’m not going to beat around the bush,
.1 don’t
care. . . . No sense in keeping you here.” Detective Green terminated the
interrogation at that point.
After the aborted interrogation, police transported Greer to a hospital so
that a suspect rape kit could be performed on him. Greer told an examiner he had
last had sex at 10:00 a.m • that day (the attack occurred after 3:00 p.m.). Greer
allowed blood and urine samples and an oral DNA swab, but refused to allow
some evidence to be collected. The examiner noted that Greer had scrapes on his
shins. Greer denied that he had penetrated the Victim’s vagina.

3
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 3 of 19

Greer s DNA was found in semen on the Victim’s underwear- the DNA
would occur once in 1.35 quintillion Caucasians.
_ °n June 18, 2012, Greer’s probation and parole officer interviewed him at
the Pettis County jail regarding his alleged rape of the Victim. Greer did not admit
that he had committed the crime, but he asked for the officer’s help so that he
could be sent to the Sexually Violent Predator Unit.
.
Greer was beinS transported by a Deputy Sheriff from a local jail to
the Department of Corrections on a parole violation, he got sick, and the Deputy
stopped to let him use the restroom. Greer slipped out of his restraints, attacked
ttie officer, knocked him down, and took his keys. The Deputy wrestled with
Greer, and a Highway Department caretaker intervened, but together they could
not restrain Greer. Greer left the restroom and escaped in the patrol vehicle with
two other inmates in the back seat. The Deputy testified that he suffered injuries
to his back, arms, hand, face, and head as a result of Greer’s assault.
The Victim identified Greer as her attacker in a photo lineup at the
hospital and at trial. Greer declined to testify at trial but his trial counsel admitted
during his opening statement that Greer had a sexual encounter with the Victim
near the Katy Trail that included both digital penetration and oral sex. Trial
counsel portrayed the encounter as consensual.
The jury found Greer guilty of forcible rape, forcible sodomy, two counts
of armed criminal action, and resisting arrest. The circuit court found Greer to be
a persistent sexual offender. The court sentenced him to life imprisonment
without parole for the rape and sodomy convictions, to life imprisonment on each
armed criminal action conviction, and to seven years’ imprisonment for resisting
arrest, with the sentences to run consecutively to each other, and to any other
sentences imposed on Greer.
Doc. 9-17 at 4-9 (footnotes omitted).
Petitioner’s judgment and sentence were affirmed on direct appeal. Doc. 9-8. Petitioner
sought post-conviction relief under Missouri Supreme Court Rule 29.15, the denial of which

was

affirmed on appeal. Doc. 9-17.
II.

Standard
State prisoners who believe that they are incarcerated in violation of the Constitution or

laws of the United States may file a petition for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2254.

Before doing so, petitioners must exhaust their state remedies.

See Coleman v.

Thompson, 501 U.S. 722, 732 (1991).
“[Hjabeas corpus is a guard against extreme malfunctions in the state criminal justice
systems, not a substitute for ordinary error correction through appeal.” Harrington v. Richter,
562 U.S. 86, 102-03 (2011) (internal quotation and citation omitted). This Court’s review of the
petition for habeas corpus is limited by the Antiterrorism and Effective Death Penalty Act
4
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 4 of 19

( AEDPA ), 28 U.S.C. § 2254. Id. at 97. AEDPA “bars relitigation [in federal court] of any
claim adjudicated on the merits in state court, subject only to the exceptions in §§ 2254(d)(1) and
(2).

Harrington, 562 U.S. at 98. Accordingly, a state habeas petitioner is not entitled to relief

unless the state court proceedings:
(1) resulted in a decision that is contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. §§ 2254(d).
As to § 2254(d)(1), a state court violates the “contrary to” clause if it “applies a rule that
contradicts the governing law set forth” by the Supreme Court or if the state court “confronts a
set of facts that are materially indistinguishable from a decision of [the] Court and nevertheless
arrives at a [different] result.” Williams V. Taylor, 529 U.S. 362, 406 (2000). A state court
violates the “unreasonable application” clause of § 2254(d)(1) if it “identifies the correct
governing legal rule from [the Supreme] Court’s cases but unreasonably applies it to the facts of
the particular state prisoner’s case.” Id. at 407. “It is not enough for us to conclude that, in our
independent judgment, we would have applied federal law differently from the state court; the
state court s application must have been objectively unreasonable.” Flowers v. Norris, 585 F.3d
413, 417 (8th Cir. 2009) (citation omitted).
As to § 2254(d)(2), “a petitioner must show that the facts underlying the claim would be
sufficient to establish by clear and convincing evidence that but for constitutional error, no
reasonable factfinder would have found the applicant guilty of the underlying offense.” Perry v.
Kemna, 356 F.3d 880, 889 (8th Cir. 2004) (internal quotation omitted). A state court’s factual
determinations are presumed correct and will stand unless the petitioner rebuts this presumpti
on
with clear and convincing contrary evidence. 28 U.S.C. § 2254(e)(1); Grass v. Reitz, 749 F.3d
738, 743 (8th Cir. 2014). Additionally, federal courts afford great deference to a state court’s
credibility findings. Smulls v. Roper, 535 F.3d 853, 864 (8th Cir. 2008) (en banc).
III.

Analysis
Petitioner brings nine grounds.

5

Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 5 of 19

A. Ground One: Parole Officer’s Testimony
Petitioner contends that the trial court erred in allowing testimony by his parole officer
that Petitioner wanted to be placed in the Sexually Violent Predator Unit with her help because
Petitioner had already invoked his Miranda right to remain silent and the parole officer subjected
Petitioner to another interrogation without renewed Miranda warnings. Doc. 1 at 16. Petitioner
moved to suppress the parole officer’s testimony, but the trial court overruled the motion on the
ground that the statement had probative value. At trial, the parole officer testified that she visited
Petitioner while he was in jail to question him about the rape allegation, that he did not admit the
rape, but that Petitioner had asked to be sent to the SVP Unit for help. In its review, the Missouri
Court of Appeals determined that Petitioner had invoked his right to remain silent with a
detective and again at a hospital and that the trial court erred in admitting the evidence. The
Court then examined for harmless error, as follows:
Here, the detective immediately ceased interrogation upon the defendant’s
request after the detective s attempt to persuade Mr. Greer to respond to the
accusations was met with his callous attitude and response. The police officer
who questioned Mr. Greer at the hospital at approximately 11:20 p.m., also
presumably did not pose additional questions after Mr. Greer refused to speak
about the case. Thereafter, the police did not again interrogate Mr. Greer. Rather,
four days later, his parole officer questioned him. Contrary to Mr. Greer’s
assertion, nothing in the record suggests that the parole officer was working with
the police when she questioned him about the case. Thus, the parole officer’s
interview with Mr. Greer was separate and distinct and did not constitute a third
interrogation such that the parole officer’s actions cannot be imputed to the
police. Contra Westover v. United States, 384 U.S. 436, 495-96 (1966) (imputing
the violation of defendant’s rights by the local police to the FBI because the FBI
benefited from the violation). Consequently, whether the police scrupulously
honored Mr. Greer’s invocation of his right to silence is irrelevant. The deciding
issue is whether Mr. Greer knowingly waived his right to silence when statements
were made to his parole officer.
It is undisputed that the parole officer here did not Mirandize Mr. Greer
before questioning him. A parole officer acts with governmental authority, and,
thus, must provide Miranda warnings before questioning a suspect that is in
police custody. See Birmingham, 132 S.W.3d at 322-23 (citing State v. Williams,
486 S.W.2d 468, 474 (Mo. 1972)) (finding reversible error when the trial court
admitted a confession to a parole officer because the defendant had not received
Miranda warnings). “[T]he prosecution may not use statements, whether
exculpatory or inculpatory, stemming from custodial interrogation of the
defendant unless it demonstrates the use of procedural safeguards effective to
secure the privilege against self-incrimination.” Id. at 322 (internal quotation
marks and citation omitted). A violation of this right only requires reversal of a
6

Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 6 of 19

conviction when the State fails to “prove beyond a reasonable doubt that the error
complained of did not contribute to the verdict obtained.” State v. Ramirez, 447
S.W.3d 792, 797 (Mo. App. W.D. 2014); see also State v. Barriner, 34 S.W.3d
139, 151-52 (Mo. banc 2000).
Mr. Greer claims that he was prejudiced because the request for the SVP
Unit showed that he viewed himself as a sexually violent predator who needed
help, which constituted an admission of the sexual assault charges against him. He
further claims that the State used the damaging evidence for that purpose by
telling the jury, in its closing argument, that Mr. Greer requested the SVP Unit
because “[h]e knew that he needed that kind of help” and “knew that he was
guilty of the offenses.”
In determining prejudice, we must conclude, “when considered with and
balanced against all of the evidence properly admitted, there is a reasonable
probability that the jury would have reached a different conclusion but for the
erroneously admitted evidence.” Barriner, 34 S.W.3d at 150. “When evidence
challenged on constitutional grounds is cumulative of other properly[]admitted
evidence, the disputed evidence could not have contributed to the defendant’s
conviction and is thus harmless beyond a reasonable doubt.” Ramirez, 447
S.W.3d at 798 (internal quotation marks and citation omitted); see also State v.
Fuente, 871 S.W.2d 438, 444 (Mo. banc 1994) (applying the harmless error rule
to affirm a conviction for the possession of marijuana because the confession,
allegedly obtained in violation of the defendant’s right to remain silent, was
cumulative).
As stated earlier, Mr. Greer made voluntary statements during booking
that were played for the jury that could constitute admissions, including the
statement that he needed to be caught. The record also shows the prosecutor
reading the following statements made by Mr. Greer to the detective, without any
objection: “I just love sex, but actually, for taking it, I haven’t taken it. It don’t
cross my mind. I mean, it does sometimes, but I just — I know better.” The
improperly admitted statements are cumulative, which did not have a decisive
effect on the jury, compared to the voluntary and properly admitted statements.
Additionally, the evidence, as shown above, was significant against him.
Accordingly, Mr. Greer’s first two points are denied.
Doc. 9-8 at 14-17 (footnotes omitted).
Given the record at bar, including Petitioner’s voluntary statements and the
overwhelming evidence, the Court finds no error in the state court’s harmless error analysis.
Specifically, the Court notes Petitioner’s statements to an officer while in the booking room
when he was arrested for the charged offenses that were played for the jury that could constitute
admissions (“I mean, I needed to be caught”; “But she turned me in ... I don’t blame her”; “I
knew I was going to be caught and be on the run”; “The rest of [the items] throw in the trash. I
ain’t never going to need [them.]”; and “I deserve this. I’m not mad at you [detective]... I did it

7
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 7 of 19

Ji

myself.” The victim testified that Petitioner raped and sodomized her against her

will by
threatening to kill her while placing a knife at her throat. Witnesses testified that she appeared
frantic and disheveled with twigs in her hair when she reported the rape. The physical evidence
showed that the victim had bruises on her legs; scratches on her legs and

arms; a scratched, sore,
and red genital area, which was consistent with forced sex; and 2013 hip treatments to
correct
injuries that stemmed from the June 2012 incident. Petitioner’s DNA was found on the victim’s
panties, and a pocketknife was in his possession at the time of arrest. See Doc. 9-7 at 11-12.
Thus, state court’s determinations did not result in “a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States” or in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding,”
see
28 U.S.C. §2254(d)(l) and (2). See also Davis v. Grandlienard, 828 F.3d 658, 666 (8th Cir.
2016) (affirming denial of relief under § 2254; Minnesota Supreme Court had provided detailed
analysis explaining that any trial court error as
to admissible statements under Miranda was
harmless beyond a reasonable doubt in part because it was cumulative to other testimo
ny).
B. Ground Two: Doyle violation
Petitioner alleges error in the admission of evidence of the entirety of a post-Miranda
interview by a detective, including the part of the interview when Petitioner cut off questioning
in violation of Doyle v. Ohio, 426 U.S. 610 (1976). Once again, the Missouri Court of Appeals
noted that it is a violation of Doyle to use a defendant’s invocation of the right to silence leading
to the termination-of am interrogation to incnminate the defendant. Because Petitioner did not
object at trial, the Missouri Court of Appeals reviewed for plain

error, as follows:

=S~S~SSS5

2013) The impermissible use is known as a Doyle violation. Id. However, the law
permits the State to adduce evidence showing the conclusion of an interrogation
when no inference of guilt can reasonably be drawn from [that] evidence.” Id.
or example, it is improper to show circumstances where it demonstrates that “the
defendant clammed up” under circumstances calling imperatively for
an
admission or denial” Id. We must now carefully scrutinize the circumstances of

mLreCoafg"'li°5Smilne Wh6ther th6y imPr°PerIy SUPP°rt 3 re3SOnable
n

,
contrary to Mr. Greer’s assertion, he did not invoke after he was
ced with the accusation of rape. Instead, he made two statements. The detective
8

Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 8 of 19

•

“toniS,?” The?e,ertthat S0me0n,e had aCCUSed him 0f raPe> t0 which he replied
,
d ?Ct‘VC answcred affirmatively and told him that the victim had
desenbed him, including the clothes that he was currently wearing He ema.ned

mm d r6, fuStatea

he m6t the

on the

°n Monday wh ”h

He
immediately followed by her question, “Did you meet a girl on Monday?”was
then replied, Not that I know of.” After she said “OK- ” ami u
question he invoked. These circumstances show that Mr. Greer clammed up^ ^
that question, which was incriminating because the identity of the rapist after
was
premised on the allegation that the rapist had encountered the victim earlier
ring the week on the trail. Showing the invocation was thus improper because
®y S“Ppor*®d an lnference of guilt. See State v. Dexter, 954 S W2d 332 338
described the^drfendanf1118
Vi°lati°n b6CaUSe the detectlve’s testimony
described the defendant invoking his right to an attorney after he had summed un

■E,infl

d'“- *»d “

*»■»« not

■ , t. We(,n0" detennine whether Mr. Greer was prejudiced by the Dovle
violation. See Ervin, 398 S.W.3d at 101. We must look at the entire recoM to
jur?™^J
W iTIZT r0fdhe
had 3 decisive effect
*e
IZttJ Z’l
^
,
d°mg S0’ we empl°y a four-factor test: “(1)
whether the government made repeated Doyle violations; (2) whether the trial
court made any curative effort; (3) whether the defendant excu^atom eSenee
m ™nsparcntly fnvolous; and (4) Whether the other evidence of toe defendant’s
guilt is otherwise overwhelming.” Id.
aeiendant s
Here, there were no
prosecutor’s closing
response to indicate another Doyle violation The prosecutor may “nfon a
■ dant s statements or silence in response to questions that were posed after a
waiver and before the invocation revoking that waiver. Ervin, 398 S W 3d at 100
MSI Gjr ll at®ment’ “t°n,Sht>” was made before he invoked. Thus, it
p
randa silence, and the prosecutor’s comment on it was therebywas
notnota
S toe hosnhaTci r alS°-referenCCS testimony by °fficerS-abourreft.sing to

Doc. 9-8 at 10-12 (footnote omitted).
Respondent correctly notes that under Eighth Circuit precedent,
the state court is a procedural bar to habeas

review for plain error in
review. Clark v. Bertsch, 780 F.3d 873 (8th Cir.

2015) (determining that a state court’s discretionary plain-error
review of [a petitioner’s]
unpreserved claim cannot excuse his procedural default.”). As noted above,
a petitioner must
9

Case 4.19-CV-00675-NKL Document 17 ; Filed q'2/18/20, Page 9 of 19

exhaust state remedies. In other words, to avoid procedurally defaulting on a claim, a federal
habeas petitioner must have first fairly presented the substance, of the claim to the state courts to
afford the state courts a fair opportunity to apply controlling legal principles to the facts pertinent
to the claim. Wemark v. Iowa, 322 F.3d 1018, 1020-21 (8th Cir. 2003) (citation omitted); see
also Baldwin v. Reese, 541 U.S. 27, 29 (2004). A claim has been fairly presented when a
petitioner has properly raised the same factual grounds and legal theories in the state courts that
he is attempting to raise in his federal petition. Wemark, 322 F.3d at 1021 (internal quotation
marks and citations omitted). Claims that have not been fairly presented to the state courts are
procedurally defaulted. Id, at 1022 (quoting Gray v. Netherland, 518 U.S. 152, 161-62 (1996));
Smith v. Groose, 998 F.2d 1439, 1441 (8th Cir. 1993) (citation omitted) (holding that failure to
comply with state procedural requirements “serves as an adequate and independent state
- procedural bar to-review.”).

-------------------------------------------- —

- - —----------

A federal court may not review procedurally defaulted claims “unless the prisoner can
demonstrate cause for the default and actual prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman, 501 U.S. at 750. To demonstrate cause, a petitioner must
show that “some objective factor external to the defense impeded [the petitioner’s] efforts to
comply with the State’s procedural rule.” Murray v. Carrier, 477 U.S. 478, 491 (1986). To
establish prejudice, a petitioner must demonstrate that the claimed errors “worked to his actual
and substantial disadvantage, infecting his entire trial with error of constitutional dimensions.”
United States v. Frady, 456 U.S. 152, 170 (1982); Ivy v, Caspari, 173 F.3d 1176 (8th Cir. 1999)
(noting standard in plea context). Lastly, in order to assert the fundamental miscarriage of
justice exception, a petitioner must ‘“present new evidence that affirmatively demonstrates that
he is innocent of the crime for which he was convicted.’” Murphy v. King, 652 F.3d 845, 850
(8th Cir. 2011) (quoting Abdi v. Hatch, 450 F.3d 334, 338 (8th Cir. 2006)).
Here, Petitioner has not shown good cause and actual prejudice to overcome his default,
nor has he established a fundamental miscarriage ofjustice. Ex gratia, the Court determines that
in light of the overwhelming evidence of guilt, any error was harmless.

See Brecht v.

Abrahamson, 507 U.S. 619, 638 (1993) (holding that the harmless-error standard applies to an
alleged Doyle violation in context of § 2254).

10
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 10 of 19

C. Ground Three: Evidence of Attempted Escape
Petitioner alleges error in the admission of three photographs showing injuries sustained
by the deputy when Petitioner attempted to escape custody during transport. The Missouri Court
of Appeals examined the claim and found it without merit, as follows:
All™,tf;th\°ffiCer teS*ified 11131 Mr- Greer escaPed fr01» custody in
August 20 2 when he was transporting him to another facility. The officer stated
Aat he pul ed into a rest stop and took Mr. Greer to the restroom. To his surprise
Mr. Greer then slipped out of his restraints, attacked him, and took his keys from
Mr &eer’theeSHte
rfT'^
reSt'St°P
WrestIill8 *> restrain him.
to! nffi
» vidr°VA °[f’ e3VUg the °fficer at the rest st°P- The State then asked
the officer to identify the injuries that Mr. Greer inflicted upon him, to which he
complied. Finally the State proffered photographs of the injuries, to which Mr
Greer objected. Mr. Greer claimed that, while the testimony may be
appropriate,
the pictures were prejudicial. The court ruled that the photographs were proof of
the facts and overruled it. The pictures were entered into evidence and published
officer smj uries'n^ C °Smg 3rgUmentS’ the State asked 1116 Jul7 to remember the
.,

Photographs are admissible if they accurately and fairly represent what
®y P“P°rt t0
and tend t0 Prove or disprove any elements of the charged

the '!!; S“C%156 S^-3d a! 7.78- “They must show relevant facts that wili aid

toe jiuy. Id. If a photograph is relevant, it should not be excluded because it
may be inflammatory, unless the situation is so unusual that the extent of the
%rw™7VV7%Z
Ph;t0graph’S Probative value.” State v. Murray, 744
l62;. 772 (f!°‘ banc ,1988)- A relevant photograph should not be excluded
cause testimony has described the matters shown therein. Id. “[We] will reverse
on y i the [erroneous admission of the photograph] was so prejudicial that it
(MPonApp°srDGir993)0f 3 ^tml” ^ ^ * Stevenson’ 852 S-W.2d 858. 863
. TtlC1 Photographs here did not tend to prove or disprove any elements of
ai,e .Cha;ged offense. Although the photographs were inflammatory and served no
a/d t0 ibe Jury in understanding Mr. Greer’s escape, they depicted the severity of
the injuries that the officer named. Because those photographs lacked any
probative value to the charged offenses, their prejudicial effect outweighed Y
any
probative value. The trial court thus abused its discretion in admitting them
However, we cannot say that the admission of the photographs was
prejudicial error in light of the testimony naming the injuries without
an
objection. Generally, photographs will not inflame the minds of the jury any more
S W 7H6 r“d te,S:™°ny °f 3 defendant’s ac*s- See State v. Jackson, 499
SAV.2d 467, 472 (Mo. 1973). We thus conclude that „
the admission of the
photographs of the injuries had no more of a decisive effect
- on the jury than the
testimony naming them. Mr. Greer’s fourth point is denied.
Doc. 9-8 at 20-23 (footnote omitted).

11
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 11 of 19

As noted above, federal habeas actions are allowed “only on the grounds that [the
petitioner] is in custody in violation of the Constitution or laws

or treaties of the United States.”
“[FJederal courts are limited to deciding whether
a state conviction
violated the federal Constitution or laws.” Schleeper v. Groose, 36 F.3d 735, 737 (8th Cir. 1994)
(citation omitted). “A federal court may not
re-examine a state court’s interpretation of and
application of state law.” Id.; see also Carter
v. Armontrout, 929 F.2d 1294, 1296 (8th Cir.
1991) (claims that do not reach constitutional magnitude cannot be addressed
in a petition for
habeas corpus). Further, a federal court will reverse a
state-court evidentiary ruling “only if the
petitioner shows that the alleged improprieties were so
egregious that they fatally infected the
proceedings and rendered his entire trial fundamentally unfair.”
Anderson v. Goeke, 44 F.3d
675, 679 (8th Cir. 1995). To meet that burden,
a petitioner must show that absent the alleged
impropriety, the verdict probably would have been different. Id. Factors include the frequency
28 U.S.C. § 2254(a).

and pervasiveness of the alleged misconduct in the context of the entire trial and the weight of
the evidence supporting guilt. Id.
After review, the Court finds that Petitioner’s broad claims here fail

to allege facts that
meet the high burden required to receive federal habeas review on a state-court evidentiary
ruling. See United States v. Hester, 140 F.3d 753, 759 (8th Cir. 1998) (noting the “admissibility
of photographs is left to the sound discretion of the trial court and will not be overturned except
for a clear abuse of discretion”) (citation omitted). Further, as set out above, based on the record,
Petitioner cannot show that absent any error, the verdict probably would be different. Ground
Three is denied. Id.
D. Ground Four: Ineffective assistance of counsel as to Doyle
Petitioner next challenges that the state court’s decision that trial counsel
was not
ineffective for failing to object to evidence that included the end of an interview by a detective in
which Petitioner cut off questioning in violation of Doyle. Doc. 1 at 27.
To prevail on a claim of ineffective assistance of counsel, a habeas petitioner must show
that: (1) “counsel’s representation fell below an
objective standard of reasonableness”; and (2)
“the deficient performance prejudiced the defense.”
Strickland v. Washington, 466 U.S. 668,
687, 688 (1984). “The first prong requires a showing ‘that counsel made
errors so serious that
counsel was not functioning as the ‘counsel’ guaranteed the defendant by the
Sixth
Amendment.’” mite V. Dingle, 757 F.3d 750, 752 (8th Cir. 2014) (quoting Strickland, 466 U.S.
12
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20

Page 12 of 19

at 687). “The second prong requires a showing that ‘there is a reasonable probability that, but
for counsel’s unprofessional errors, the result of the proceeding would have been different.”’ Id.
at 753 (quoting Strickland, 466 U.S. at 694).
([W]hen reviewing an ineffective-assistance-of-counsel claim, ‘a court must indulge a
strong presumption that counsel’s conduct falls within the wide range of reasonable professional
assistance.’” Woods v. Donald, 135 S.Ct. 1372, 1375 (2015) (quoting Strickland, 466 U.S. at
689).

Establishing that a state court’s application of Strickland was unreasonable under

§ 2254(d) is all the more difficult.” Harrington v. Richter, 562 U.S. 86, 105 (2011). “The
standards created by Strickland and § 2254(d) are both ‘highly deferential,’ and when the two
apply in tandem, review is ‘doubly’ so.” Id. (internal citations omitted). To grant relief under
§ 2254, this Court must conclude that the state court unreasonably applied the Strickland test or
that, in reaching its conclusion regarding the performance of Petitioner’s attorney, it made
unreasonable factual conclusions. Gabaree v. Steele, 792 F.3d 991, 996 (8th Cir. 2015) (citing
Harrington, 562 U.S. at 131 (additional citation omitted)).
Here, the Missouri Court of Appeals noted the Strickland standard and analyzed the claim
as follows:
On direct appeal we found that the admission of Greer’s invocation of his
right to remain silent constituted a Doyle violation. We assume, without deciding,
that counsel s failure to object to the admission of Greer’s invocation constituted
deficient performance under the Strickland standard. See Strickland, 466 U.S. at
687-91 (setting forth the performance prong of the two-step ineffectiveness
inquiry). Even assuming that counsel performed deficiently by failing to object to
the introduction of Greer’s invocation, however, Greer cannot show that he was
prejudiced by counsel s performance. “[W]here there is overwhelming evidence
of guilt, a movant fails to establish Strickland prejudice.” Butler v. State, 557
S.W.3d 427, 437 (Mo. App. W.D. 2018); accord McKee v. State, 540 S.W.3d
451, 457 (Mo. App. W.D. 2018) (citing Taylor v. State, 382 S.W.3d 78, 82 (Mo.
banc 2012)). While we applied a somewhat different prejudice standard in Greer’s
direct appeal, our discussion as to why Greer did not suffer a manifest injustice
due to the Doyle violation also establishes that there was no reasonable
probability of a different outcome if the Doyle violation had not occurred.
Mr. Greer made voluntary statements to an officer while in
the booking room when he was arrested for the charged offenses
that were played for the jury that could constitute admissions. He
stated, “I mean, I needed to be caught”; “But she turned me in ... I
don’t blame her”; “I knew I was going to be caught and be on the
run , The rest of [the items] throw in the trash. I ain’t never going
13
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 13 of 19

to need [them.]”; and “I deserve this. I’m not mad at you
[detective] ... I did it myself.” The victim testified that he raped
and sodomized her against her will by threatening to kill her while
placing a knife at her throat. Witnesses testified that she appeared
frantic and disheveled with twigs in her hair when she reported the
rape. Additionally, the physical evidence showed that the victim
had bruises on her legs; scratches on her legs and arms; a
scratched, sore, and red genital area, which was consistent with
forced sex; and 2013 hip treatments to correct injuries that
stemmed from the June 2012 incident. Moreover, Mr. Greer’s
DNA was found on the victim’s panties, and a pocketknife was in
his possession at the time of arrest. Clearly, this case involved far
more evidence than merely the conflicting accounts of Mr. Greer
and the victim.
Mr. Greer’s consent defense was weak because his conduct
after the incident—resisting arrest, planning to leave Missouri
before he was arrested, and escaping custody after his arrest—
indicates that he was guilty. See [State v.] O’Neal, 392 S.W.3d
[556,] 572 [(Mo. App. W.D. 2013)]; see also State v. Williams, 97
S.W.3d 462, 469 (Mo. banc 2003). Additionally, Mr. Greer’s
statement to the detective that he visited the trail earlier that day
excluded the location of the incident, although his defense, the
victim, and a jogger told the jury that he had been on the trail in the
afternoon. See O’Neal, 392 S.W.3d at 572 (stating that exculpatory
statements proven to be false manifest a consciousness of guilt).
Moreover, he told the nurse that the last time he had consensual
sex was that morning, but the incident had occurred in the
afternoon. Accordingly, we cannot say that the admission of the
invocation had a decisive effect on the jury.
Greer I, No. WD76945, Mem. Op. at 11-12.
In addition to the evidence discussed in Greer’s direct appeal, his claim of
a consensual sexual encounter is also disproven by the fact that the Victim had
reported her concerns about Greer to multiple people before the sexual assault
ever occurred.
Given the physical evidence, the Victim’s behavior before and after the
attack, the Victim’s severe injuries, and Greer’s own incriminating statements and
actions, his claim of a consensual sexual encounter at trial was highly implausible,
and stood little or no chance of success. There is no basis on this record to find a
reasonable probability of a different outcome if the circuit court had excluded the
brief exchange during Greer’s interrogation in which he invoked his right to
remain silent.
Doc. 9-17 at 11-12.

14
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 14 of 19

Once again, given the record and thorough Strickland-based analysis, the state court’s
determinations did not result in “a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States” or in “a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” See 28 U.S.C. § 2254(d)(1) and
(2). This Court agrees there is no prejudice under Strickland. Ground Four is denied.
E. Ground Five: Ineffective assistance of counsel as to statutory privilege
Petitioner next claims his trial counsel was ineffective for failing to object to the
testimony of the parole officer that Petitioner had asked to go to the Sexually Violent Predator
Unit on the ground that these statements were privileged under Missouri Revised Statute
§ 559.125.2. That statute states in part that “[information and data obtained by a probation or
parole officer shall be privileged information and shall not be receivable in any court.”
The Missouri Court of Appeals examined this claim on post-conviction review and found
that there was no Strickland prejudice, and noted that on direct appeal that the appellate court
had found the claim was without merit because the evidence was harmless beyond a reasonable
doubt. See supra Section IIIA. This decision is consistent with a reasonable application of
Strickland. In light of the overwhelming evidence of guilt, there is no reasonable probability the
outcome of the trial was changed by this testimony.
F. Ground Six: Ineffective assistance of counsel concerning officer’s injuries
Petitioner next claims trial counsel was ineffective for not objecting to evidence of
injuries he received when Petitioner escaped his custody during transport.
The Court of Appeals determined that counsel acted reasonably because the evidence was
admissible as its admission had been litigated in a motion in limine. More specifically, the Court
of Appeals determined that the injuries Petitioner inflicted during his escape were relevant to
show consciousness of guilt, and there was no Strickland prejudice in light of the overwhelming
evidence of guilt. Doc. 9-17 at 12-16.
Once again, given the record and thorough Strickland-based analysis, the state court’s
determinations did not result in “a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States” or in “a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” See 28 U.S.C. § 2254(d)(1) and
15

Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 15 of 19

(2). Ground Six is denied.
G. Ground Seven: Petitioner’s statements while Mirandized
Petitioner next contends counsel should have objected to the admission of statements
Petitioner made to detectives after he had been arrested and transported to the police station and
handcuffed to a bench. Doc. 1 at 37. Petitioner contends these statements were obtained in
violation of Miranda and that the admission of the statements violated his right to effective
assistance of counsel, a fair trial, and due process, in violation of the Fifth, Sixth, and Fourteenth
Amendments. Doc. 1 at 36.
Petitioner concedes this claim is procedurally defaulted. As noted above, this Court may
not review procedurally defaulted claims “unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or demonstrate that
failure to consider the claims will result in a fundamental miscarriage of justice.” Coleman, 501
U.S. at 750
Here, Petitioner contends he is entitled to review through Martinez v. Ryan, in which the
Supreme Court recognized a “narrow exception” to Coleman by holding that “[inadequate
assistance of counsel at initial-review collateral proceedings may establish cause for a prisoner’s
procedural default ofa claim of ineffective assistance at trial.” 132 S.Ct. 1309, 1315 (2012). The
primary concern in Martinez “is the prisoner’s potential inability—caused by ineffective counsel
or a complete lack of counsel altogether—to present the merits of his ineffective assistance claim
i

to some court with the authority to decide the matter.” Franklin v. Hawley, 879 F.3d 307, 312
(8th Cir. 2018).
As to Petitioner’s claim that trial counsel was ineffective for failing to object to the
admission of certain statements, the Court notes that to establish “cause” to overcome procedural
default under Martinez, a petitioner must show: (1) the underlying ineffective assistance of trial
counsel claim is “substantial,” (2) the “cause” consisted of there being no counsel or ineffective
counsel during the post-conviction relief proceeding, (3) the state post-conviction relief
proceeding was the initial review proceeding, and (4) state law required (or forced as a practical
matter) the petitioner to bring the claim in the initial review collateral proceeding. Trevino v.
Thaler, 133 S. Ct. 1911, 1918 (2013).
Here, there is no dispute as to the third and fourth elements, because Missouri does not
permit a petitioner to bring an ineffective assistance of counsel claim on direct appeal. Martinez,
16
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 16 of 19

132 S.Ct. at 1313. Rather, Missouri law requires a petitioner to bring such a claim in a collateral
review proceeding. Id. Martinez thus may provide a path for Petitioner to demonstrate cause if
he can show the first two Martinez elements: (1) that the underlying ineffective-assistance-oftrial-counsel claim is a substantial one, and (2) that his post-conviction relief counsel was
ineffective under Strickland.
As to substantiality, “a petitioner must show that reasonable jurists could debate whether
(or, for that matter, agree that) the petition should have been resolved in a different manner or
that the issues presented were adequate to deserve encouragement to proceed further.” Miller-El
v. Cockrell, 537 U.S. 322, 336 (2003) (internal quotation marks and alterations omitted). Stated
another way, a claim is “insubstantial” if “it does not have any merit or ... is wholly without
factual support.” Martinez, 132 S.Ct. at 1319.
Here, Petitioner fails to establish that his claim of ineffectiveness based on counsel’s
failure to object to statements he made when he was not Mirandized is substantial. The record
Petitioner provides does not include context as to the statements (Doc. 1-1 at 76-), but as best as
can be discerned, the statements to which Petitioner refers appear to be mostly spontaneous
comments he made to an officer in a waiting area, not in response to any questions about the
case, that were recorded by a camera in the area.
Further, Petitioner fails to establish that post-conviction relief counsel was ineffective
under Strickland and thus has failed to establish “cause” to excuse his procedural default.
Specifically, in light of the overwhelming evidence of guilt, Plaintiff cannot establish prejudice.
See Chavez v. Weber, 497 F.3d 796, 805 (8th Cir. 2007) (holding that “The admission of
statements obtained in violation of Miranda may constitute harmless error where there remains
overwhelming independent evidence as to the defendant’s guilt.”).
Petitioner fails also to show that a fundamental miscarriage of justice will result if his
defaulted claim is not considered. See Murphy, 652 F.3d at 850 (a petitioner must present new
evidence that affirmatively demonstrates that he is actually innocent of the crime for which he
was convicted in order to fit within the fundamental miscarriage of justice exception). As a
result, this ground is procedurally defaulted. Ground Seven is denied.
H. Ground Eight: Ineffective assistance of counsel concerning potential witness
Petitioner next contends that counsel was ineffective for not calling Petitioner’s niece to
provide an explanation of why Petitioner had a bus ticket to Florida after the crime.
17
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 17 of 19

Petitioner concedes this claim is procedurally defaulted. Petitioner’s counsel raised this
claim in the amended post-conviction relief motion, and the post-conviction review court
rejected the claim after an evidentiary hearing. The motion court found counsel was aware of the
niece, but did not think her testimony would be helpful; the motion court further found and that
at the time of trial her whereabouts were unknown and she could not have been subpoenaed or
called. Doc. 9-13 at 9. Post-conviction appellate did not to pursue the claim in the appeal of the
denial of post-conviction relief. Doc. 9-12. The claim was rejected in a merits decision, then
defaulted in the appeal of the denial of post-conviction relief.
Again, the Court finds that Petitioner has not shown good cause and actual prejudice to
overcome his default, nor has he established a fundamental miscarriage ofjustice. Ex gratia, the
Court determines that in light of the overwhelming evidence of guilt, any error was harmless.
See Sanders v. Trickey, 875 F.2d 205, 210 (8th Cir. 1989) (holding that “Since appellant offers
only speculation that he was prejudiced by the failure of his counsel to interview [a witness], he
has not made the required showing of prejudice under Strickland”). Ground Eight is denied.3
J. Ground Nine: Ineffective assistance of counsel due to public defender system
In Ground Nine, Petitioner appears to allege that his counsel at every critical stage of his
case was ineffective because Missouri public defenders are by their nature ineffective. That
claim is procedurally barred. Further, this ground does not raise a cognizable claim of a
constitutional violation. See Arnold v. Dormire, 675 F.3d 1082, 1087 (8th Cir. 2012) (rejecting
claim of system failure of Missouri public defender system). A claim of ineffective assistance of
counsel must be based on a specific act or omission outside the wide range of professional
competence that standing on its own created a reasonable probability the outcome of the
proceeding was changed. See Middleton v. Roper, 455 F.3d 838, 851 (8th Cir. 2006) (rejecting
attempt to group ineffectiveness claims, finding alleged errors that are not constitutional
violations individually cannot be grouped to create a cumulative violation, and each claimed
error must stand or fall on its own individual merits); Cole v. Roper, 623 F.3d 1183, 1196 (8th
Cir. 2010). That kind of cognizable individual claim is not what Petitioner alleges here.

3 To the extent Petitioner contends his counsel was ineffective for failing to appeal an issue raised but
denied in the motion court, this claim is defaulted and not cognizable under Martinez. That is because Petitioner has
no constitutional right to effective legal assistance on appeal. In Dansby v. Hobbs, the Eighth Circuit explicitly
“decline[d] to extend Martinez to claims alleging ineffective assistance of counsel on direct appeal.” 766 F 3d 809
833-34 (8th Cir. 2014).

18
Case 4:19-cv-00675-NKL Document 17 Filed 02/18/20 Page 18 of 19

Further, this claim is procedurally barred because Petitioner did not present it to the
Missouri courts.4 Again, the Court finds that Petitioner has not shown good cause and actual
prejudice to overcome his default, nor has he established a fundamental miscarriage of justice.
Ground Nine is denied.
VI.

Certificate of Appealability
Under 28 U.S.C. § 2253(c), the Court may issue a certificate of appealability only “where

a petitioner has made a substantial showing of the denial of a constitutional right.” To satisfy
this standard, Petitioner must show that “reasonable jurists” would find the district court ruling
on the constitutional claim(s) “debatable or wrong.”

Tennard v. Dretke, 542 U.S. 274, 276

(2004). Because Petitioner has not met this standard, a certificate of appealability will be denied.
VII.

Conclusion
For the foregoing reasons, Petitioner’s petition for writ of habeas corpus pursuant to 28

U.S.C. § 2254 is DENIED, a certificate appealability is DENIED, and this case is DISMISSED.
IT IS SO ORDERED.
s/ Nanette K. Laughrev
NANETTE K. LAUGHREY, JUDGE
UNITED STATES DISTRICT COURT
DATED: February 18, 2020

/

4 Further, to the extent Petitioner argues he could not have uncovered the facts until after the proceedings
were closed, he has not met his heightened pleading standards in that regard. To comply with Rule 2(c) of the Rules
Governing Section 2254 Proceedings, Petitioner must state specific, particularized facts that entitle him to relief for
each ground specified. Adams v. Armontrout, 897 F.2d 332, 333-34 (8th Cir. 1990) (holding that “to substantially
comply with the Section 2254 Rule 2(c), a petitioner must state specific, particularized facts which entitle him or her
to habeas corpus relief for each ground specified.” The petitioner’s “facts must consist of sufficient detail to enable
the court to determine, from the face of the petition alone, whether the petition merits further habeas corpus
review.”). Petitioner did not allege specific facts concerning an actual conflict of interest, nor did he provide
“citations to the record.
19
Case 4:19-cv-00675-NKL Document 17

Filed 02/18/20 Page 19 of 19

